A
Om~o\\ nek. Supreme. Courf
r>foA

Mo<AV (Wob rx^

K> CBS s'WOO,
](, CPS S?oo t

Y.
YbfWin J. WiaYa
U\'AeA SfcAo Su

Covxr 4" .,

\VrlV ^-or C&r\\ocosTa

FOURTEENTH DISTRICT

No. 464P19

Supreme Court of JBlortf) Carolina
STATE OF NORTH CAROLINA
v
DARWIN JOSUE PERALTA
From N.C. Court of Appeals
( 18-374 )
From Durham
( 16CRS58002 16CRS58003 )

ORDER

Upon consideration of the petition filed on the 8th of December 2019 by Defendant in this matter for
discretionary review of the decision of the North Carolina Court of Appeals pursuant to G.S. 7A-31, the following
order was entered and is hereby certified to the North Carolina Court of Appeals:
"Denied by order of the Court in conference, this the 1st of April 2020."
si Davis, J.
For the Court
The following order has been entered on the motion filed on the 10th of December 2019 by Defendant to
Include COA Opinion with Petition for Discretionary Review:
"Motion Allowed by order of the Court in conference, this the 1st of April 2020."
si Davis, J.
For the Court

WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 6th day of April 2020.

3$

m
%

pm

$

ays
5

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
M. C. HackneyL"''
Assistant Clem, Supreme Court Of North Carolina

Copy to:
North Carolina Court of Appeals
Mr. Craig M. Cooley, Attorney at Law, For Peralta, Darwin Josue - (By Email)
Ms. M. Elizabeth Guzman, Assistant Attorney General, For State of North Carolina - (By Email)
Ms. Anne M. Middleton, Special Deputy Attorney General - (By Email)
Ms. Danielle Marquis Elder, Special Deputy Attorney General, For State of North Carolina - (By Email)
Mr. Daniel P. O'Brien, Special Deputy Attorney General, For State of North Carolina - (By Email)
Mr. Roger A. Echols, District Attorney
Hon. Archie L. Smith, III, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)

|Jor^

Courf c^r ApoecJs
^ft'OO

\<o CRS 5SOOa.

K)cxa'W\ C>ro\\oGv

V
TWw'm X

tt, CW S?003
(x

^Xm-Wyti Counhi

LAn’iVecX S'-Ures
V/flV ^br Ctr^ oreon

Courc-

IN THE COURT OF APPEALS OF NORTH CAROLINA
No. COA18-374
Filed: 5 November 2019
Durham County, Nos. 16 CRS 58002—03
STATE OF NORTH CAROLINA
v.
DARWIN JOSUE PERALTA
Appeal by defendant from judgments entered 4 October 2017 by Judge Henry
W. Hight, Jr., in Durham County Superior Court. Heard in the Court of Appeals 13
March 2019.
Attorney General Joshua H. Stein, by Assistant Attorney General M. Elizabeth
Guzman, for the State.
Cooley Law Office, by Craig M. Cooley, for defendant-appellant.

BRYANT, Judge.
Where an expert witness did not impermissibly vouch for the credibility of
another witness, the trial court did not err in admitting the expert witness testimony.
Where defendant sought to admit impermissible character evidence, the trial court
did not err in denying the testimony. Where the admission of witness testimony was
proper, the trial court did not err in its instructions to the jury regarding that witness
testimony.
On 3 October 2016, a Durham County Grand Jury indicted defendant Darwin
Josue Peralta oa one countof statutory rape of a child by adult offender and three

State v. Peralta
Opinion of the Court

poo”) many times with his hands and his private part; that defendant “spit in his
hand” and touched his private part; and that defendant touched her in all the rooms
in the house. In particular, Deha described defendant bringing her to his bedroom,
taking off her clothes along with his clothes, and touching her while they were both
naked in bed. She stated this occurred sometimes while they were playing hide-nseek with other children in the house. Delia further testified that she hid in the
bathroom because defendant would touch her.
Ryan, Deha’s ten-year-old brother, testified at trial that Delia would
sometimes ask him to stand at the door while she used the bathroom. He stated that
one day while playing hide-n-seek, he saw defendant and Delia laying on the bed
under the covers. Delia’s clothes were on the floor, and Deha was lying on her back
while defendant was looking in her direction and touching her private part. Ryan
testified to also observing the following behavior of defendant towards Delia: that
defendant “told [Deha] to go with [him] and then he [would] give her candy;” that
defendant kept candy in a blue bowl under his bed; and that defendant would only
play with Delia in the room during hide-n-seek and “never went [to] find [the other
children].”

Ryan further testified that he asked Delia about lying down with

defendant and that she told him defendant touched her private parts. Ryan urged
her to tell their parents, but she was scared. Finally, she told them what defendant
had been doing to her.

-3-

State v. Peralta
Opinion of the Court
Ik

Dr. Herold, a nurse practitioner at CANMEC, testified about the physical
examination she performed on Delia, which was based on Delia’s statements provided
by Snider, and the CANMEC team evaluation.
Although called as a witness for defendant, Detective Jesus Sandoval, who
investigated the case, testified about his interview with Delia, in which she told him
about the sexual acts performed by defendant: “She told me about the kids playing a
game, and that [defendant] called her into [another] room. . . . She said, ‘he was
touching me.’ And I said, ‘How did he touch you?’ And that is when she stated that
he pulled her pants down and ‘put his fingers in [her][.]’ .... And I said, ‘Where did
he put his fingers?’ She said, ‘Right here,’ and she pointed down to her genitals. And
she was on video, but she gestured down her genital area.” Detective Sandoval
further testified: “[B]asically she said that he carried her to the room. She said, ‘No’
so he picked her up and carried her there. . . . And I asked her, ‘Did that happen a lot
or just one time?’ And she said, ‘A lot of times.
After being found guilty on all counts, defendant was sentenced to 300 to 420
months for statutory rape of a child, 300 to 420 months for three counts of statutory
sfex offense with a child by an adult, and 16 to 29 months for three counts of indecent
liberties with a child. All sentences were to run consecutive to each other. Defendant
was ordered to register as a sex offender upon his release from prison and enroll in
satellite-based monitoring for the remainder of his life. Defendant appeals.

-5-

State v. Peralta
Opinion of the Court

error had a probable impact on the jury’s finding that the defendant was guilty.” Id.
(citation and quotation marks omitted).
Our courts have
set out the limits and restrictions on expert testimony in
child sexual abuse cases. In a sexual offense prosecution
involving a child victim, the trial court should not admit
expert opinion that sexual abuse has in fact occurred
because, absent physical evidence supporting a diagnosis
of sexual abuse, such testimony is an impermissible
opinion regarding the victim’s credibility. [A]n expert
witness may testify, upon a proper foundation, as to the
profiles of sexually abused children and whether a
particular complainant has symptoms or characteristics
consistent therewith.
State v. Wallace, 179 N.C. App. 710, 714, 635 S.E.2d 455, 459 (2006) (internal
citations and quotation marks omitted).
In the instant case, defendant directs this Court’s attention to State v. Trent,
320 N.C. 610, 359 S.E.2d 463 (1987), State v. Parker, 111 N.C. App. 359, 432 S.E.2d
705 (1993), and State v. Bates, 140 N.C. App. 743, 538 S.E.2d 597 (2000),3 in

3 In State v. Trent, our Supreme Court held that the expert gave a “limited basis” for his
diagnosis—presumably relying exclusively on the child’s statements of sexual abuse—where he
“repeatedly testified that his diagnosis was based upon the results of the pelvic exam, [which showed
the child’s hymen was not intact], and the history given to him by the victim. He cited no other basis
for his diagnosis.” 320 N.C. 610, 614, 359 S.E.2d 463, 465—66 (1987). The expert’s testimony was ruled
to be inadmissible.
Similarly, in State v. Parker, this Court held the expert’s testimony to be inadmissible where
he testified that the child “had been sexually abused over a long period of time” and his opinion was
based “only on his interview with [the child] in which [the child] related a history of sexual abuse and
the fact that [the child’s] hymenal ring was.not intact.” Ill N.C. App. 359, 366, 432 S.E.2d 705, 70910 (1993) (emphasis added).

- 7.-

State v. Peralta
Opinion of the Court

[DR. HEROLD]: We do complete medical evaluations. And
that include [s] speaking to a caretaker, whoever brings the
child; and we will speak to the caretaker and get a complete
medical history.... And we also [complete] a social history,
which [involves] speaking to the patient and finding out
who lives in the home. We do -- I get an evaluation that
include[s] risk factors, so I [can] do a full parent interview.

[T]he social worker will then be getting a medical history
from the child at the same time. And after . . . our social
worker is done getting a medical history from the child, and
I know how I need to treat the child, I will then do a medical
exam on the child, and do any necessary labs or test, or
anything that have been determined are necessary through
the obtaining of medical history that the social worker will
have done.
[THE STATE]: And did you do that in this case?
[DR. HERORD]: Yes, ma’am.
Dr. Herold detailed the examination process of a pre-pubescent child and her findings
from Deha’s examination—in which she revealed that Deha had a “normal genital
exam ”—and testified that the absence of physical evidence was not uncommon after
72 hours of initial contact for a majority of cases involving children who had been
sexually abused.
On cross-examination, Dr. Herold was expressly asked by defense counsel the
following questions:
[DEFENSE COUNSEL]: And now on September 8, 2016
[Delia] is in your clinic, correct?
[DR. HEROLD]: Yes.
-9 -

State v. Peralta
Opinion of the Court

On redirect, Dr. Herold clarified that a conclusive finding for child sexual abuse
can be medically diagnosed in four situations: the child is pregnant, the child has
gonorrhea, the child has chlamydia, or the child has HIV. Dr. Herold further testified
to the significant parts of Delia’s team evaluation:
[DR. HEROLD]: The statements that [Deha] provided and
she provided clear statement^] describing sexual abuse.
She described the alleged perpetrator putting saliva, or she
called it droul [sic] on his hand. She described details of
him placing his finger inside of her genital, in her anus,
and in her vagina. She described clear statements of these
events occurring.
At five years of age[,] this child was able to tell us what had
happened, and give details that were details that were
clear and concise details which led us to have the medical
findings that we did.
Following redirect, defense counsel expressly asked if the team evaluation
relied solely on Deha’s statements, in which Dr. Herold testified as such:
[DEFENSE COUNSEL]: So what she said matters much
more than any physical evidence that you did or did not
find; correct?
[DR. HEROLD]: We did a medical exam well after three
days from when this child last had alleged contact with the
alleged perpetrator. Therefore, I would not expect to find
any findings on her medical exam. The most important
part of a child’s evaluation, if it has been greater than 72
hours, is the statement that the child provides.

[DEFENSE COUNSEL]: But you did find [that] sexual
abuse happened, correct?

- 11 -

State v. Peralta
Opinion of the Court

Throughout Dr. Herold’s direct testimony, she repeatedly stated that Delia’s
statements about sexual abuse were “allegations.” However, on cross-examination,
defendant deliberately elicited testimony from Dr. Herold regarding whether she had
made a medical diagnosis that Delia had been sexually abused and what data she
collected to connect defendant to the alleged penetration. Therefore, defendant is
precluded from asserting prejudice from Dr. Herold’s statements when he invited the
error for which he now seeks relief from on appeal. See N.C. Gen. Stat. § 15A-1443(c)
(2017) (“A defendant is not prejudiced by the granting of relief which he has sought
or by error resulting from his own conduct.”).
Notwithstanding defendant’s invited error, defendant has not demonstrated
that the jury would have reached a different result in light of all the other
unchallenged evidence presented at trial. This includes strong testimony from Delia
at trial and during videotaped interviews; from Ryan, who testified, inter alia, to
seeing defendant and Delia in bed together; from Snider; and from Detective
Sandoval. Thus, we conclude the trial court did not err by admitting Dr. Herold’s
testimony.
II
Defendant next argues the trial court erred by not allowing the testimony of
two defense witnesses who allegedly asked Deha’s mother to stop talking about sex
in front of children. We disagree.

- 13 -

State v. Peralta
Opinion of the Court

In the instant, case, defendant sought to introduce testimony of witnesses that
he proffered as relevant to prove a “central part of his theory of defense [ ] that [Delia]
heard these type[s] of statements and these type[s] of sexual statements from [her
mother] when she was around her boyfriends or talking about her boyfriends[.]”
However, it is clear that defendant’s attempt to introduce the testimony was premised
on “undermining the truthfulness of [Delia’s] statements;” in other words, to “raise
doubts about the origin of [Delia’s] ability to graphically describe certain sex acts.”
Although premised as an attempt to impeach the mother’s credibility,
defendant’s proposed testimony was, in reality, an attempt to put forth impermissible
character testimony as to Delia’s credibility. Neither witness could offer an opinion
as to Delia’s credibility. All they could offer was speculation that comments made by
Delia’s mother “might” serve as the basis of Deha’s explicit statements of sexual
abuse, not whether Delia personally experienced the abuse. Defendant was unable
to demonstrate that the proposed witnesses had sufficient personal knowledge to
form an opinion about Delia’s credibility.
Thus, because the proffered testimony was too speculative and not within the
witnesses’ personal knowledge, the trial court did not err in excluding the testimony.
Ill
Finally, defendant argues the trial court erred by failing to properly issue
limiting instructions to the jury as to Dr. Herold’s testimony regarding the statistics

- 15 -

State v. Peralta
Opinion of the Court

the jury, was significant and sufficient evidence for the jury to find defendant guilty.
Even assuming the trial court erred in not giving limiting instruction as to Dr.
Herold’s testimony, there is no probability that the jury would have reached a
different result under the circumstances.
Accordingly, for the reasons stated herein* we hold defendant received a fair
trial, free from any prejudicial error.
NO ERROR.
Judges DILLON and ARROWOOD concur.

- 17 -

